OIG Audit Report GR-60-08-003

Office of Justice Programs National Institute of Justice Cooperative Agreement Awarded to North Dakota State University, Fargo, North Dakota

Audit Report GR-60-08-003


December 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Forensic DNA Analysis Laboratory Cooperative Agreement No. 2004-RG-CX-K001 in the amount of $3,456,962 (including two supplements) awarded by the Office of Justice Programs (OJP), National Institute of Justice (NIJ), to North Dakota State University (NDSU). The purpose of the award is to establish a forensic DNA laboratory that will provide a variety of DNA analysis services, initiate a research program into improving current DNA analysis procedures, and provide laboratory training for a new doctoral degree in DNA Forensic Science.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. As a component of OJP, NIJ is dedicated to the mission of advancing scientific research, development and evaluation to enhance the administration of justice and public safety.
 NDSU is a publicly supported comprehensive land-grant institution, with a strong agriculture and applied science tradition. As a land-grant institution, NDSU resulted from the 1862 act of Congress that set aside public land in each state to ensure that each state possessed “at least one college whose leading object shall be . . . to teach such branches of learning as are related to agriculture and the mechanic arts, in order to promote the liberal education of the industrial classes and professions of life.” NDSU currently offers over 100 undergraduate and graduate programs of study to an enrollment of over 12,000 students. In addition, NDSU's research expenditures surpass $100 million annually. 
The objective of this audit was to determine whether reimbursements claimed for costs under the award were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement, and to determine program performance and accomplishments. As a result, we reviewed performance in the following areas: (1) internal control environment; (2) drawdowns; (3) expenditures, including personnel and indirect costs; (4) budget management and control; (5) property management; (6) financial status and progress reports; (7) award requirements; and (8) program performance and accomplishments. We determined that matching costs, program income, contractors and subgrantees were not applicable to this award. As shown in the table below, NDSU was awarded a total of $3,456,962 under the agreement.

 TABLE 1.
FORENSIC DNA ANALYSIS LABORATORY COOPERATIVE AGREEEMENT WITH NORTH DAKOTA STATE UNIVERSITY


 Award 
 Start Date 
 End Date 
 Amount 


 2004-RG-CX-K001
Supplement 1
Supplement 2
 09/01/04
 09/01/04
 09/01/04
 08/31/05
 08/31/06
 08/31/08
 $989,477
 986,643
 1,480,842


 Total: 
 $3,456,962


Source: Office of Justice Programs
We examined NDSU’s accounting records, financial and progress reports, and operating policies and procedures and found:

NDSU needed to strengthen internal controls for ensuring the allowability of expenses against approved budgets. However, based on our audit, NDSU has since addressed this weakness through added oversight procedures. 
Unallowable travel expenses of $1,678 and operating expenses of $2,511 (including indirect costs associated with those expenses) charged to the award were unallowable, since those expenses, which appear to be agreement‑related and supported, were not approved by the budget. 
Unsupported personnel costs of $978 were charged to the agreement. 
Required progress reports were submitted up to 25 months late; however, NDSU officials have since addressed this issue and filed recent reports timely.

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I.







Return to OIG Home Page